     Department of Homeland Security

     ��������������������������


          National Protection and Programs 

     Directorate’s Management Letter for FY 2013 

           DHS Financial Statements Audit





OIG-14-67                                    April 2014
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 21 2014

MEMORANDUM FOR:               Nicole Windham
                              Budget and Financial Administration
                              National Protection and Programs Directorate

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT:                      National Protection and Programs Directorate’s
                              Management Letter for FY 2013 DHS Financial Statements
                              Audit

Attached for your information is our report, National Protection and Programs
Directorate’s Management Letter for FY 2013 DHS Financial Statements Audit. This
report contains six comments and six recommendations related to internal control
deficiencies that were not required to be reported in the Independent Auditors’ Report
on DHS’ FY 2013 Financial Statements and Internal Control over Financial Reporting.
Internal control deficiencies which are considered significant deficiencies were reported,
as required, in the Independent Auditors’ Report, dated December 11, 2013, which was
included in the Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency
Financial Report. We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006


January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, National Protection and Programs Directorate
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The National Protection and Programs Directorate (NPPD) is a component of DHS. During our audit,
we noted certain matters involving internal control and other operational matters, related to NPPD, that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A. Our findings related to information technology systems have been
presented in a separate letter to the DHS Office of Inspector General, the NPPD Chief Information
Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of NPPD’s organization gained during our work to make comments and suggestions that we hope will
be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                            National Protection and Programs Directorate
                             Table of Financial Management Comments

                                         September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference    Subject                                                                       Page

FMC 13-01    Time and Attendance                                                            2
FMC 13-02    Approval of Personnel Actions                                                  2
FMC 13-03    Review and Approval of Expenses (Intra-Governmental Payment and Collection)    2
FMC 13-04    Personnel File Documentation                                                   2
FMC 13-05    Documentation of Contracting Officer Warrant Authority                         3
FMC 13-06    Government Accountability Office Checklist                                     3



                                           APPENDIX

Appendix    Subject                                                                        Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and      4
            Recommendation (NFRs)




                                                   1

                             National Protection and Programs Directorate
                                  Financial Management Comments

                                         September 30, 2013




FMC 13-01 – Time and Attendance (Notice of Finding and Recommendation (NFR) No. National
Protection and Programs Directorate (NPPD) 13-01)

       The supervisory review controls over employee timesheets was not operating effectively to verify
       that the hours reflected on the timesheet were accurate. Specifically, we noted one instance in
       which the employee incorrectly recorded two hours of leave on their timesheet instead of three
       hours which were approved and taken during the pay period.

       Recommendation:
       We recommend NPPD develop organization-specific policies and procedures to include detailed
       reviews of timesheets to ensure time and attendance including leave time is accurately recorded.

FMC 13-02 – Approval of Personnel Actions (NFR No. NPPD 13-02)

       NPPD lacked appropriate policies and procedures to verify that employee data processed for new
       hires is accurately entered into EmpowHR prior to submission to the U.S. Department of
       Agriculture National Finance Center (NFC).

       Recommendation:
       We recommend that NPPD develop organization-specific policies and procedures to review
       employee data entered into EmpowHR to ensure the data is complete and accurate prior to
       processing to NFC.

FMC 13-03 – Review and Approval of Expenses (Intra-Governmental Payment and Collection)
(NFR No. NPPD 13-03)

       Controls were not operating effectively to ensure the contracting officer’s representative (COR)
       approval of Intra-Governmental Payment and Collection (IPAC) payments (cash receipts)
       occurred prior to posting in the general ledger. Specifically, two samples selected as part of the
       June 30, 2013, expense testwork were posted to Federal Financial Management System without
       the approval of the COR.

       Recommendation:
       We recommend that the CORs or technical point of contact be involved in all approvals and
       rejections of IPAC payments prior to the posting of the transaction into the general ledger. No
       IPAC transactions should be posted without obtaining the IPAC Payment Authorization Form or
       email documenting the COR’s or technical point of contact’s review has occurred.

FMC 13-04 – Personnel File Documentation (NFR No. NPPD 13-06)

       Controls were not operating effectively to ensure that employee benefits were properly supported
       by available documentation within the employee personnel files. Specifically, we noted the
       following:




                                                    2

                                                                                              Appendix A
                          National Protection and Programs Directorate
                   Crosswalk - Financial Management Comments to Active NFRs

                                       September 30, 2013



      •	 Two instances in which the employee was a transfer to NPPD from another agency and the
         employee personnel file did not include the Thrift Savings Plan (TSP)-1 form. Further, no
         evidence was provided to indicate the employee made the TSP election electronically directly
         in their personnel file (via Employee Personnel Page (EPP).
      •	 One instance in which the employee was a transfer to NPPD from another agency and the
         employee personnel file did not include the applicable Federal Employees Health Benefits
         election form. Further, no evidence was provided to indicate the employee made an election
         electronically directly in their personnel file (via EPP).

      Recommendation:
      We recommend that NPPD develop organization-specific policies and procedures over employee
      transfers to ensure appropriate documentation related to employee benefits is maintained and
      readily available.

FMC 13-05 – Documentation of Contracting Officer Warrant Authority (NFR No. NPPD 13-14)

      Controls were not operating effectively to ensure that a complete listing of contracting officers,
      including warrant authority, is maintained and updated on a regular basis.

      Recommendation:
      We recommend having Office of Special Acquisitions maintain a Warranted Contracting Officer
      list that is updated on a regular basis.

FMC 13-06 – Government Accountability Office Checklist (NFR No. NPPD 13-17)

      Controls were not operating effectively to ensure the responses to the Government Accountability
      Office (GAO) 2010 Checklist are appropriate based on NPPD’s operations and financial
      reporting. Specifically, we noted the following:
      •	 NPPD responded "Y" to a question regarding the use of the Consumption Method for
          operating materials and supplies (OM&S); however, NPPD uses the Purchase Method for
          accounting for OM&S.
      •	 NPPD answered "Yes" for non-exchange revenue and receivables when NPPD does not
          report non-exchange revenue or receivables on the Statement of Changes in Net Position.

      Recommendation:
      We recommend that NPPD ensure reviews of the GAO 2010 Checklist are performed completely
      and effectively to identify errors.




                                                   3

                                                                                                             Appendix A

                                National Protection and Programs Directorate
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                  Disposition1

                                                                                                 IAR                 FMC
              NFR
Component               Description                                                     MW        SD        NC        No.
              No.
NPPD          13-01     Time and Attendance                                                                          13-01
NPPD          13-02     Approval of Personnel Actions                                                                13-02
                        Review and Approval of Expenses (Intra-Governmental
NPPD          13-03                                                                                                  13-03
                        Payment and Collection)
NPPD          13-04     Ineffective Review of Recoveries                                 D
NPPD          13-05     Unbilled Revenue                                                 A
NPPD          13-06     Personnel File Documentation                                                                 13-04
NPPD          13-07     General Property, Plant, and Equipment Controls                  A
NPPD          13-08     Financial Reporting                                              A
NPPD          13-09     Undelivered Orders Abnormal Balance                              D
NPPD          13-10     Unfilled Customer Orders                                         D
                        Federal Financial Management System (FFMS) to Prism
NPPD          13-11                                                                      D
                        Reconciliation
NPPD          13-12     Anti-Deficiency Act                                                                  L
                        Funds Management and Untimely Recording of Obligation
NPPD          13-13                                                                      D
                        Activity to the General Ledger
NPPD          13-14     Documentation of Contracting Officer Warrant Authority                                       13-05
                        Untimely Clearing of Fund Balance with Differences per the
NPPD          13-15                                                                      A
                        Department of the Treasury Statement of Differences
                        General      Ledger      (FFMS)     to   Government-Wide
NPPD          13-16     Accounting/Central       Accounting    Reporting    System       A
                        Reconciliation
NPPD          13-17     Government Accountability Office Checklist                                                   13-06
NPPD          13-18     Invoice Receipt                                                  D
NPPD          13-19     Federal Financial Management Improvement Act of 1996                                 J
NPPD          13-20     Entity Level Controls                                                      E


1
 Disposition Legend:
IAR       Independent Auditors’ Report dated December 11, 2013
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation




                                                             4

                                                                                    Appendix A

                               National Protection and Programs Directorate
                        Crosswalk – Financial Management Comments to Active NFRs

                                            September 30, 2013


Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   National Protection and Programs Directorate

   Under Secretary
   Director of Management
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-67
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
